u

'P i n
/ H
cP ■

Pi
No.

tilGINAL
Supreme Court, U.S.
FILED

FEB 0 4 2621
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

Stanford R. Coleman

— PETITIONER

(Your Name)
vs.

Roger W. West Met al."

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Court of Appeals For The Sixth Circuit
(NAMEj OF COURT THAT LAST RULED ON MERITS OF YbUR CASE)
PETITION FOR WRIT OF CERTIORARI

Stanford R. Coleman
(Your Name)

P.0. Box 5000, FCI -Hazelton
(Address)

Bruceton Mills, WV 2652
(City, State, Zip Code)

N/A
(Phone Number)

RECEIVED
JUL 2 0 2021

lEgigaSuiSSL

QUESTIONS) PRESENTED

1.

Whether this Court is required to consider the doctrine

of Constitutional Avoidance in any case involving either

the continued

validity or extension of Almendarez-Torres--Both of which are at
issue in the present case.

2.

Whether this Court should address the conflict between

the State Courts and the Federal Courts.

LIST OF PARTIES

[)S All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

NONE

'

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

II

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

III

STATEMENT OF CASE

4-6

REASONS FOR GRANTING THE WRIT

07

CONCLUSION

31

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

Final Judgment of U.S. Court of Appeals
Order of U.S. Court of Appeals

TABLE OF AUTHORITIES
I.

Cases

Alleyne v. United States,
570 U.S. 99 (2013)..........

10, 17, 18, 21, 22, 26

Almendarez-Torres v. United States,
523 U.S. 224 (1998)..9, 10, 12, 13, 14, 15, 16, 17, 21, 22, 23, 24, 26
Apprendi v. New Jersey,
530 U.S. 466 (2000)...

11, 12-13, 15, 16, 17, 19, 22, 23, 24, 25, 26

Archbold,
27
Bishop,
30
Blakely v. Washington
542 U.S. 296 (2004).

9, 17, 18, 22,

25

Castillo v. UnitedaStates,
530 U.S. 120 (2000)

fclark v.

11, 12, 17

Martinez,

542 U.S. 371 (2005)

13

Dillard v. Roe,
244 F.3d 758 (2001)

19, 20, 21

Hooper v. California,
155 US (1895)............

16

In re Winship,
397 U.S. 358 (1979)

14, 15, 23

INS v. St. Cyr,
533 U.S. 289 (2001)

17

Jackson v. Virginia,
443 U.S. 307 (1979)

14

Jones v. United States
526 U.S. 227 (1999)

10, 11, 12, 15

Lambrix v. Singletary,
520 U.S. 518 (1997)

21

McMillan v. Pennsylvania,
477 U.S. 79 (1986)

23

Miller v. Gammie,
335 F.3d 889 (2003)

16

Monge v. California,
524 U.S. 721 (1998)

15

Phillips v. Commonwealth,
28 Mass 283 (1831)

29

Plumbly v. Commonwealth,
43 Mass 413 (1841)

28

Tuttle v. Commonwealth,
68 Mass 505 (1854)

28

Smith v. Commonwealth,
14 Serg & Rawle 69 (Pa 1826)

27

State v. Freeman
27 Vt 523 (1855)

29

State v. Goeller
119 Md 61 (1912)

29

State v. Hines,
26 Ga 614, 616 (1859)

29

State v. Hope,
68 So 3d 366

28

State v. Kilbourn,
9 Conn 560, 563 (1833)

28

State v. Lacy,
15 Wis 13 (1862)

28

Statutes and Rules
8 USC § 1326(b)(2)
18 USC § 924(c)

10, 12
9, 11

21 USC § 841

16

21 USC § 846

21

21 USC § 851

8, 9, 17, 18

4B1.1

18, 20

4B1.2(b)

19

("FSA”)

21

IN THE
SUPREME COURT OF THE UNITED STATES
y„

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
(Xl For eases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix _.A
the petition and is
Case No. 18-5323
: or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or.
[ ] is unpublished.
to

The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
;
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

"c

I.

JURISDICTION

lx] For eases from federal courts:
The date on which the United States Court of Appeals decided my case
was Nov 17, 2020.
[ ] No petition for rehearing was timely filed in my case.
[x] A timely petition for rehearing was denied bv the United States Court of
Appeals on the following date: Dec 17 ’ 2020_______ , and a copy of the.
order denying rehearing appears at Appendix B
[X] An extension of time to file the petition for a writ of certiorari was granted
11
(date)
(date) on
to and including _ July
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court deeicjed my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ _ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

II.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

This Case Involves the Question Of Constitutional Avoidance
And Difficult Constitutinal Questions That Is The Jury's Alone, Which
Assures Due Process, and The Fifth and Sixth Amendment. It alsoilnvolves
the Constitutionality of the Career Offender and § 851.
Lastly, It Involves the Conflict between State Courts and Federal
Courts, that according to Rule 10 This Court is Authorized to Hear.

III.

STATEMENT OF THE CASE
This case stems from a family drug organization out of a very small town,
Mt.Sterling, Kentucky. The primary actor was Lisa Crowe- whom Coleman was
one-time paramour of Crowe--He was only paid for those services

and

nothing else--it was no further evidence of any conspiratorial agreement.
After, Kentucky Police identified Crowe's residence as a hotspot
and made numerous controlled-buys, from Crowe, Cundiff-(the Son), Tina
Powell-(the Sister)

Joann Powell-(the Mother), and Holder-(the Live-in

boy-friend/dealer), all who are convicted felons looking to avoid the
consquences of their own guilty actions.
In their plan to escape their own guilty actions
Coleman quickly became the escape-goat. Being that Coleman has had a
history of drug dealing, it was easy for the police to buy the story-But
the jury was not so convinced--It took a lot of prosecutorial misconduct in
order to convince the jury. The jury had difficulty coming to a final
decision over it's two days of deliberation. The deliberation lasted longer
than the trial. The jury, "Haven' t been able to reach a_ decision." See
Attachment(Doc # 143 page 74 (lines 18-19), ID#1357). In fact, the jury
second note to the court stated, "We are unable to reach a decision at this
time. It doesn't appear that a decision will be made "again" at this time."
(R 87 Jury note, page ID 287).
In true essence, we all know most jurors are there to do
their patriotic duties,(who has families of their own, which they are
trying to get back home to), and they really do not want to be there--And

4

when they were informed about they would be there through this week and
even into next week--they were rushed to decision, in return Coleman was
rushed to judgment. See Attachment(Doc # 143 page 75 lines 12-14, ID#
1358.
But it does not stop there; Clearly, the judge cannot give the
jury trial transcripts never admitted into evidence

at least, without

giving them instructions. (R 88, Jury note, page ID 289). It is clearly
abuse of discretion. The jury must rely on their own individual and
collective memory. The jury's recollection is what controls as to the
testimony they heard. Over Coleman's objections the judge sent transcripts
to the jury. Once the government has rest its case, the trial was by law
officially over. The jury were in deliberation for two days when the judge
gave them the transcripts--giving them the transcripts allowed the jury
to have a second trial without Coleman being able to put forth a defense.
Coleman's due process and Sixth Amendment were violated.
But it does not stop there-during the trial when the prosection
realized the case was beginning to slip away from him--his course of action
turned into prosecutorial misconduct--Coleman was granted his constitutional
right to represent himself, but the government had agent Maynard to read
a portion of Coleman's plea deal to the jury--Over Coleman's objectionsIt was very prejudicial and inadmissibleBut it does not stop there-the prosecutorial misconduct
continued--A direct violation of 18 USC § 201(c)(2), In theory the leniency
in § 201(c) is only in exchange for truthfu testimony.
"Common sense would suggest that (an accused accomplice)

5

often has a greater interest in lying in favor of the prosecution rather
than against it; especially, if he is still awaiting his own trial or
sentencing. To think that criminals will lie to save their fellows but
not to obtain favors from the prosecution for themselves is indeed to
clothe the criminal class with more nobility than one might expect to
find in the public at large." The words of this Court in 1967, in
Washington v Texas 388 U.S. 14.
Congress' intent in § 201(c) sought to eliminate, at the
source, the most obvious incentive for false testimony-And § 201(c)
does not admit any exception for the government or its prosecutors.
The prosecutorial misconduct continued-the prosecution
vouching and bolstered for a witness. A prosector may not express a
personal oponion concerning the guilt of the defendant, or the crediblity
of a witness. See Attachment (Doc # 143 page 24 lines 21-23, ID#1307.
Line 32 ..."But is what they said the truth? Yeah."

Here, clearly the

prosecutor improperly invited the jurors to convit Coleman on a basis
other than a neutral independent assessment of the record of proof- which
is a denial of due process.
It was too much for Coleman to overcome, he was convicted
of the one count indictment. Final judgment was entered on March 26,2018
and he was sentenced to the term of imprisonment of 340 months.(Judgment,
R. 123 page ID 459). Notice of Appeal was timely filed pro se on March 28,
2018 (Notice of Appeal, R. 124, Page ID 466). The case was affirm Nov 17,
2020.

.. 5?, t

■t

; \

■

-’j ■

REASONS FOR GRANTING THE PETITION

This Court would be addressing the need to avoid Difficult
Constitutional questions, and jadconstitutional avoidance of the
continued validity and extension of Almendarez-Torres and holding its
decision to the "unique facts" the exception demands.

This Court would be addressing a Conflict between the State Courts
and the Federal Courts. It will provide guidance to the lower courts,
to avoid constitutional questions when possible.

»i

07

L

ARGUMENT 1:

WHETHER, THIS COURT IS REQUIRED TO CONSIDER THE
DOCTRINE OF CONSTITUTIONAL AVOIDANCE IN ANY CASE
INVOLVING EITHER THE CONTINUED VALIDITY OR THE
EXTENSION OF ALMENDAREZ-TORRES — BOTH OF WHICH ARE
AT ISSUE IN THE PRESENT CASE

This Court's
decisions in Shepard and Dretke v Haley, 124
|
S.Ct 1847 (2004), require that § 851 and Career Offender be construed,
consistently with the doctrine of constitutional avoidance, to include
indictment by grand jury and proof to a jury beyond a reasonable doubt,
or an admission of all the components for § 851 and career offender.
But this Court need not even reach this question in the face
of the omissioncof the career offender document from the the indictment
and its facial insufficiency.
The Career Offender statute is not mention in the indictment.
There is'no allegation in the indictment.
Lastly, the notice in the indictment on its face does not invoke the
§ 851 or career offender applications. The insufficiency is compounded

it

by the failure to folt ow the elements required by § 851 and career
offender. As noted by this Court in Haley the sequence and characteristics
of prior convictions are elements beyond the mere existence of a prior
conviction, 124 S.Ct at 1853-54. Both statutes have a clear element
that the prior convictions must occur on different occasions

to

provide proper.invocation of the statutes, whether by indictment,
admission or otherwise, the statutory minimum must be states and proven.

08

The government neither charged nor proved the necessary elements here.
The Doctrine Of Constitutional Avoidance
A.
Requires that § 851 and The Career Offender Be Construed
To Require Pleading In The Indictment and Proof Beyond A
Reasonable Doubt at Trial Or Admission To Establish All The
Components For Applications of The Act.
Under governing Supreme Court authority this Court must apply the
doctrine of constitutional avoidance to the question of how'the § 851
and career offender must be charged and by what manner it must be
proved. Because the career offender implicates both the validity of
Almendarez-Torres, 523 U.S. 224 (1998), and that decision extension, the
Court must avoid the constitutional issue by statutory interpretation:
The career offender and § 851 silence on procedure should be filled
with construction of the statute to require such procedures. This
construction is especially appropriate because this Court construed
the "ACCA" statute the same, requiring pleading and proof beyond a
reasonable doubt in Castillo v United States

530 U.S. 120 (2000),

holding that 18 U.S.C. § 924(c) required pleading and proof of all its
component parts.

i

The only possible justification for not including the components- of
§ 851 and the career offender in the indictment or plea colloquy is
the 'narrow exception' for prior convictions set out in AlmendarezTorres. Justice Thomas has renounced his deciding vote in AlmendarezTorres, first in Apprendi, then in Shepard, and finally, in Alleyne.
Given the shift of the deciding vote, as well as, the rationales of
Blakely v Washington, 124 S.Ct 2531 (2004), Booker, this Court has
twice required that the doctrine of constitutional avoidance be applied
to the difficult constitutional questions raised by the continued

'

. 09

■

. •
■

—*
—

vitality of Almendarez-Torres, and once again, in Alleyne, 570 U.S.
99 (2013).
In the watershed ruling in Apprendi, this Court established
the constitutional norm that Fifth and Sixth Amendments require factors
that increase the statutory maximum to be proved to a jury beyond a
reasonable doubt. The Apprendi and Alleyne Courts recognized

a "narrow

exception" to this rule for "undisputed" prior convictions under the
"immigration statutes" in Almendarez-Torres---- Almendarez-Torres onlycovered a "narrow exception" to the constitutional requirement that
elements of a crime be pled and proved to the factfinder beyond a
reasonable doubt. In that case

the majority found that the fact of a

prior felony judgment, which increased the statutory maximum only for
"illegal reentry", did not need to be alleged in the indictment. The
Court found that Congress intended to create a sentencing factor only
in 8 U.S.C. § 1326(b)(2), rather than an element, Almendarez-Torres,
523 U.S. at 235-39. The Court precedent on trial rights inapplicable
to the fact of a prior conviction " where conduct, in the absence of
the recidivism, is independently unlawful." Almendarez-Torres523 U.S. at 230, 241.
One year later, This Court applied the doctrine of
constitutional doubt to construe the federal carjacking statute as
describing the elements of different offenses rather than setting
forth

mere sentencing factors.

251-52 (1999). In dicta

Jones v United States, 526 U.S. 227,

the Jones' Court declared:

10

Under the Due Process Clause of the Fifth
Amendment and the notice and jury trial
guarantees of the Sixth Amendment, any fact
(other than prior conviction) that increases
the maximum penalty for a crime must be charged
in an indictment, submitted to a jury, and
proven beyond a reasonable doubt.
Jones, 526

U.S. at 243 n.6. To avoid possibly finding the statute

unconstitutional, the Court interpreted the fact of intent to cause
substantial bodily harm as an element of the carjacking crime.
On June 5, 2000, a unanimous Court in Castillo v United States,
530 U.S. 120 (2000), held that 18 U.S.C. § 924(c) described a separate
offense. By rigorously construing the same section of the federal
firearms statute that contains the ACCA, the Court found it unnecessary
to rely on the doctrine of constitutional doubt, The Court held that
section 924(c) made a weapon status as a machinegun an element, not a
mere sentencing factor. Castillo, 530 U.S. at 124, 131. The Court also
recognized that any doubt regarding Congress' intent would be resolved
in favor of a jury determination. Castillo, 530 U.S. at 130.
Three weeks later, in Apprendi, this Court reached the
constitutional issue and drew a bright line, which no legislature may
cross.
In Apprendi, This Court addressed a New Jersey statute that
increased the statutory maximum for assault when the crime was motivated
by a discriminatory purpose. The state legislature left no room for
doubt---- the additional factor was intended as a sentencing factor, not
an element. This Court held the statute was unconstitutional.
i

11
F

V
i

/

I

I

Castillo, independently established that Almendarez-Torres should not
apply to § 851, or the career offender because of the drastic effect
on the maximum sentence, the distinct definitions of convictions under
both statutes

and the inapplicability of protecting the defendants

from the prior conviction

which the Almendarez-Torres, Court noted did

not apply under 1326(b)(2), at 523 U.S. 230.
Castillo, 530 U.S. at 131, indictment submitted to a jury
and proven beyond a reasonable doubt. Apprendi, 530 U.S. at 476 (quoting
Jones, 526 U.S. at 243 n.6); In particular, Apprendi'looked to its
holding in Jones that:
(l)t is unconstitutional for a legislature to remove from
the jury the assessment of facts that increase the prescribed
range of penalties to which a criminal defendant is exposed.
It is equally clear that such facts must be established by
proof beyond a reasonable doubt.
Apprendi, 530 U.S. at 490 (quoting Jones, 526 U.S. at 252-53). This
Court expressly noted that the factor's effect, not the legislature's
labeling, determined whether the factor constitutedi. an element of the
crime. Apprendi, 530 at 494. The Apprendi, majority included Justice
Thomas, who specifically renounced his former position as the swing
vote in Almendarez-Torres, 530 at 520 (Thomas,J., concurring).
The constitutional protections announced in Apprendi to § 851 and
career offender. The extremely

narrow exception' recognized in

Almendarez-Torres---- the fact of a prior conviction---does not apply.
because that exception was described by this Court in Apprendi, as
at best an exceptional departure" based on "unique facts." Apprendi,

12
J

530 U.S. at 489, 490. This Court even suggested that Almendarez-Torres
was incorrectly decided, and that a logical application of our reasoning
today should apply if the recidivist issue were contested, Apprendi,
does not contest the decision's validity and we need not revisit it for
purposes of. our decision today to treat the case as .."narrow exception"
to the general rule we recalled at the outset." (emphasis added; foot­
note omitted). Thus, Apprendi limited the reach of Almendarez-Torres
to the "unique" situation where the prior conviction was not otherwise
before the jury and did not implicate other factual questions related
to the prior conviction.
On May 3

2004, this Court fundamentally changed the approach

to Almendarez-Torres by holding that both its validity and expansion
raised "difficult constitutional questions... to be avoided if possible."
Haley, 124 S.Ct at 1853-54.
Then, on March 7

2005, this Court expressly applied the

doctrine of constitutional avoidance to the ACCA in Shepard.
The doctrine of constitutional avoidance requires that,
prior to addressing.difficult constitutional questions

the Court should

attempt to construe the relevant statute to avoid the constitutional
problem. Clark v Martinez, 125 S. Ct 216, 722-24 (2005).
Because the career offender and § 851 are susceptible to construction
to avoid constitutional problems, It should be treated without reaching
any constitutional question.
In Haley, a Texas prisoner filed a petition for habeas

— y3

*
*

corpus relief under 28 U.S.C. § 2254. The prisoner had received a 15year recidivist sentence for stealing...124 S.Ct at 1849-50. The
Texas recidivist statute depended on temporally separate prior
convictions. Although Haley did not raise the issue at his state penalty
phase or on direct appeal, he was not really eligible for the recidivist
sentence under Texas law because one of the offenses had occurred three
days before the first conviction became final. 124 S.Ct at 1850. How­
ever, throughout state post-conviction proceedings

Texas insisted that

the procedural default required that the unlawful sentence stand.
The Fifth Circuit granted habeas corpus relief, finding
that the "actual innocence" gateway to federal heabeas corpus applies to
non-capital sentencing. Haley 124 S. Ct at 1851, See also Schlup v Delo,
513 U.S. 298 (1995).
In this Court reasoning in Haley, it specifically addressed
and applied the doctrine of constitutional avoidance to Almendarez-Torres
Haley , 124 S. Ct at 1853. The Court noted that a claim of actualinnocence often implicates the constitutional sufficiency decision of
Jackson v Virginia, 443 U.S. 307 (1979). This Court noted that the
"constitutional hook in Jackson" was In re Winship, 397 U.S. 358 (1979)
in which this Court held that "due process requires proof of each
element of a criminal offense beyond a reasonable doubt." Haley 124 S.
Ct at 1853. This Court then explicitly applied the doctrine of
constitutional doubt to both the validity and possible extension of
Almendarez-Torres:

I

14

We have not extended Winship1s protection to prior of prior
convictions used to support recidivist enhancements. AlmendarezTorres... See also Apprendi v New Jersey, 503 U.S. 466, 488-90,
(2000) (Teserving judgment as to the validity of Almendarez-Torres;
Monge v California, 524 U.S. 721, 734 ...(1998) (Double Jeopardy
Clause does not preclude retrial on a prior conviction used to
support recidivist enhancement).. Respondent contends that AlmendarezTorres should be overruled or, in the alternative, that it does not
apply because the recidivist statute at issue required the jury to
find not only the existence of his prior convictions but also the
additional fact that they were sequential... These difficult
constitutional questions...are to be avoided if possible.
Haley, 124 S.Ct at 1853-54 (emphasis added)(citations omitted). Thus,
the Court is required to consider the doctrine of constitutional
avoidance in any case involving either the continued validity or the
extension of Almendarez-Torres-both of which are at issue in present
cases.
This Court followed Haley approach in construing the ACCA in
Shepard. This Court applying the rule of constitutional avoidance-,
construed the ACCA to limit inquiry regarding the facts of the prior
conviction. Shepard, 125 S.Ct at 1262-63.
This Court reasoned that judicial■resolution of the disputed
facts.would require the Court to decide whether Almendarez-Torres
authorizes a judge to make the finding regarding the disputed'fact or
whether, under Jones and Apprendi, the increase in statutory maximum
can only be decided by a jury under the Sixth Amendment. Shepard, 125
S.Ct at 1262 ("While the disputed fact here can be described as a fact
about a prior conviction, it is too far removed from the conclusive
significance of a prior judicial record, and too much like findings
subject to Jones

and Apprendi, to say that Almendarez-Torres clearly

L

is'1;

authorizes a judge to resolve the dispute."). This Court should to
avoid the serious risk of constitutionality; Especially, since this
Court has twice held that both the validity and extension of AlmendarezTorres requires application of the doctrine of constitutional avoidance.
The application of Haley and Shepard in the career offender and
to § 851 context is a question of first impression upon which there is
no binding precedent. But under Miller v Gammie, 335 F.3d 889, 900
(9th cir. 2003)(En banc), intervening Supreme Court authority has under­
cut the theory and reasoning underlying prior circuit precedent. There­
fore, this Court is free to rule in first instance..
B.

The Doctrine Of Constitutional Avoidance Should Be Applied
To require Due Process The Fifth and Sixth Amendment
Compliance as a Matter Of Statutory Interpretation

In applying the doctrine of constitutional avoidance, "(E)very reasonable
construction must be resorted to, in order to save a statute from j
unconstitutionality." United States v Buckland, 289 F.3d 558, 564 (9th
cir. 2002)(En banc) (quoting Hooper v California, 155 U.S. 648, 657
(1895)). In Buckland, the Court addressed the effect of Apprendi on the
federal narcotics trafficking statute----21 U.S.C. § 841. Previously,
courts had unformly interpreted this statute to allow drug quantity to
be determined by a judge using a 'preponderance of the evidence standard'
In the wake of Apprendi, the court reexamined the statute seeking
to avoid a finding that it was unconstitutional. Buckland, 289 F.3d at
564 ("(l)f an otherwise acceptable construction of a statute would
raise serious constitutional problems, and where an alternative

1

16

interpretation of the statute is 'fairly possible,' we are obligated
to construe the statute to avoid such problems.") (quoting INS v ST. Cyr ■
533 U.S. 289, 299-300 (2001)).
Despite the existence of a clearly labeled "penalty"
provision, the Court "eschews the distinction between sentencing factors
and elements of a crime:
'(T)he relevant inquiry is not one of form, but of effect-And
does the required finding 'expose' the defendant to a 'greater
punishment' than that authorized by the jury's guilty verdict.?' "
Buckland, 289 F.3d at 566 (quoting Apprendi, 530 U.S. at 494). The
Buckland court 'overruled' prior authority treating sentencing factors
as immune from Fifth and Sixth Amendment protections based on construction
of the statute:
" We honor the intent of Congress and the requirements of due process
by treating drug quantity and type, which fix the maximum sentence
for a conviction, as we would any other material fact in a
"criminal prosecution: It must be charged in the indictment, submitted
to the jury, subject to the rule of evidence, and proved beyond ;a
reasonable doubt." Buckland, 289 F.3d at 568.
As in Buckland, the § 851 and the career offender statutes must be
revisited in light of this Court's decisions in Blakely, Apprendi,
Castillo, and Alleyne. To avoid the constitutional questions of the
application and expansion of Almendarez-Torres and both, statutes must be
construed to require charge by grand jury indictment and proof as
required by the Fifth and Sixth Amendment.
The increase of the statutory minimum or maximum, where
the indictment does not charge career offender, and nor admitted to
application violates Due Process and the Fifth and Sixth Amendments

%
i

17 t
J

under

Apprendi, Ring, Blakely and Alleyne.
Even without resort to statutory construction

the.

enhancement of the sentence would violate binding authority by this
Court regarding reasonable doubt and jury trial rights.
C.

Factual And Legal Distinctions From Almendarez-Torres
Leave This Court To Be Controlled By Apprendi, Ring,
Blakely And Alleyne.

The statutes involved in this case career offender and § 851 involve
more than the 'mere existence' of a fact of conviction, and the label
attached to the factual predicates for increase sentence is 'irrelevant'
to 'Due Process,' and the 'Fifth and Sixth' Amendment rights.
The Career Offender and 21 U.S.C. § 851 require a number
of 'factors' to be proven to increase the statutory minimum or maximum
sentence. Clearly, the required factors are more than the mere existence
of prior judgment of conviction, e.g., the language of the text.
21 U.S.C § 851 reads:
Affirmation or denial of previous conviction. If the
(b)
United States attorney files information under this section
the court 'shall' ... inquire of the person with respect to
whom the information was filed whether he affirms or denies...
and 'shall' inform him that any challenge to a prior
conviction... may not thereafter be raised...
(c)...(2) of this subsection, the United States attorney 'shall
have the burden of ''proof beyond a reasonable doubt" on any
issue of fact... the court 'shall' enter finding of fact and
conclusions of law.
4B1.1 Career Offender reads:
A defendant is a career offender if (l)... (2) the
(a)
"instant offense" of conviction is a felony that is either
a crime of violence or a "controlled substance offense"

Clearly, in order for the punishment to increase under § 851 and the

18

i

career offender, additional facts surrounding the previous convictions,
under the section 4B1.2(b) defintions, as well as the convictions were
"committed on occasions different from one another," must be proved.
Each prior, as well as the

instant offense' must also meet the defintions

for an offense to be considered a "controlled substance offense" and
the definition of a "controlled substance offense" is :
1.

The exhaustive definition of “controlled substance offense ” in
the text of§ 4B 1.2(b) includes only completed offenses.

The text of § 4B 1.2(b) states that “[t]he term ‘controlled substance offense’
means an offense” that is one of an exhaustive list of six enumerated drug offenses:
(1) manufacture, (2) import, (3) export, (4) distribution, or (5) dispensing of a
controlled substance (or a counterfeit controlled substance), or the (6) possession
of a controlled substance (or a counterfeit substance) with intent to manufacture,
import, export, distribute, or dispense.” U.S.S.G. § 4B 1.2(b).
In Dillard.v Roe, 244 F.3d 758, 772 (9th Gir. 2001), the Court applied
the principles underlying Apprendi to the California three-strikes
statute and the federal firearms statute to hold that factors beyond
the mere existence of a prior judgment are elements of the offense.
The Court considered a state statute that, like the career offender
and § 851

that increase the statutory maximum based on prior

conviction of a certain type of offenses---here a "controlled substance
offense" But in Dillard, .a "serious.felony" where the defendant

j

19 i

"personally uses a firearm." The Court found that the decision was
controlled by the Sixth Amendment guarantee of a jury determination
of facts resulting in an increase statutory maximum. Dillard 244 F.3d
at 772-73. The Court's analysis of the statute required review of facts
beyond the mere fact of conviction:
Dillard
Our determination concerning whether the fact that _TI---"personally use(d) a firearnr' is an element or a sentencing
factor" requires that we look beyond the enumerated elements^ot
the crime for which Dillard was convicted. We must analyze
the
operation and effect of the law" mandating the two five-year
sentence... We must then determine whether, in this instance,
"Winship's reasonable-doubt requirement applies to facts not
formally identified as elements of the offense charged.
Dillard, 244 F.3d at 772 (citation omitted). The Court then viewed;.the
additional facts that needed to be determined beyond the mere existence
of a judgment and held that these factors must be submitted to a jury
and determined beyond a reasonable doubt: "We conclude therefore, that
the additional fact found by the trial judge in this case is an

element'

that transforms the offense for which Dillard was charged and convicted
into a different, more serious offense that exposes him to greater and
additional punishment." Jid. at 773. On that basis, the court found
that federal relief was required in the absence of proof to a jury
beyond a reasonable doubt that the prior offense involved personal use
of a firearm against the victim. Id.
Under the career offender and § 851 the government must charge and
prove the instant offense and two other convictions were controlled
substance offense"

or "crime of violence"

(4B1.1), including facts

necessary for a categorical analysis of the prior convictions..

' A

!•

■’

20

Which 21 U.S.C. § 846, is not. Nor is the other prior conviction in
this case; Therefore, the defendant is 'actual innocent' The conviction
the government relied on-the indictment for the conviction do not
contains the defendant's name(Stanford R. Coleman); See Attached Exhibit
Clearly, the defendant is not the

indicted person'...The defendant's

name was penciled in, Nor is it the same Birthday or Social Security
Number.1
The government must also prove the facts that effectively
fix the mandatory/minimum sentence for a career offenders those facts
are "elements" to which constitutional protections apply. See Alleyne
133 S.Ct at 2158. Those empirical issues, which rise or fall based on
events occurring only after the conviction, by definition are beyond
the 'fact

of conviction, and beyond the narrow Almendarez-Torres harbor

Identity is mandated by DOJ policy through the First Step Act-("FSA")
which clearly, is a clarification of what the law was always meant to
be. The FSA did not announce a rule of constitutional law-but The FSA
did announced a new,^retroactive rule of statutory interpretation.
A rule is new if it was not dictated by precedent existing at the
time the defendant's conviction became final." Teague v Lane, 489 U.S.
288, 301, 109 S.Ct 1060, 1070, (1989). A rule is not dictated by existing
precedent unless the rule would have been "apparent to all reasonable
jurists.
Lambrix v Singletary, 520 U.S. 518 (1997). As for retroactivity
a 5u^e aPP-^es retroactively on collateral review if it is a "new
substantive rule() or if it is one of "a small set of watershed rules
criminal procedure implicating the fundamental fairness and accuracy
of the criminal proceeding." Schriro v Summerlin, 542 U.S. 348 (2004).

•

v 21 t

In order

to be a career offender the government must

prove the defendant's

was an violation of a "controlled

instant offense

substance offense" and the government must prove he had two other
convictions of a "controlled substance offense

or two convictions of a

"crime of violence" or otherwise the defendant cannot be sentenced as a
career offender--which raise the sentencing floor and/ or ceiling. On
the other hand, for the. reasons as to whether the defendant has been
* convicted of a "controlled substance offense

can have no effect.

The government must also prove the instant offense, and
prior convictions for the purpose of a 'categorical approach

which looks

the elements-of a defendant's

only to the statutory definitions-i.e.

prior convictions, if not the categorical approach, can have no effect;
Otherwise, the sentence cannot be enhanced. As for the reasons discussed,
Alleyne, requires these facts to beyond the limited Almendarez-Torres
recidivism exception because they are 'not merely 'fact(s) of a prior
conviction; They instead

are

related to the manner and duration of the

sentence and date of release. See Apprendi, 120 S.Ct at 2363. Those
factual criteria are for the jury alone to evaluate. Clearly, these
difficult constitutional questions... are to be avoided if possible.
Apprendi

Blakely, Ring, and Alleyne establish that due process, and the

Fifth and Sixth Amendment trial rights require that factors that increase
statutory minimum/maximum must be either proved to a jury beyond a
reasonable doubt or admitted during the guilty plea colloquy, and charged
in an indictment(.)

22

At the outset, the Apprendi court established that the label
given to the increase in punishment was not relevant: "Merely using
the label 'sentence enhancement' to describe the (enhancing factor)
surely, does not provide a principled basis for treating them differently"
Apprendi 530 at 476. The Court noted that any distinction between an
"element" and a "sentencing factor" was unknown at common law and did
not emerge until McMillan v Pennsylvania, 477 U.S. 79 (1986). Which
leave

the question, for this Court, whether the term "sentencing

factor" is devoid of meaning. And whether Judges are using the term
'"sentence enhancement" to describe 'facts

Ithat increase a sentence

beyond what due process, and the Fifth and Sixth Amendment allow?
That may be a question for another day-But McMillan has been
overruled. This Court ultimately held that the precedent of Winship
and Mullaney v Wilbur, 421 U.S. 684 (1975), required that factors increasing
the statutory maximum must be proved to a jury beyond a reasonable doubt.
Apprendi, 530 U.S. at 490.
As set out earlier, the Apprendi Court specifically addressed AlmendarezTorres and tightly limited it to its facts.
"Since Winship, this Court made clear beyond peradventure that Winship's
due process and associated jury protections extend, to some degree, to
'determination that (go) not to a defendant's guilt or innocence, but
simply to the length of his sentence.' " Apprendi 530 U.S. at 484
(quoting Almendarez-Torres, 523 U.S. at 255 (Scalia, J., dissenting)).
This Court noted that Almendarez-Torres "represents at best an
exceptional departure from the historic practice (of requiring pleading

r

23” |

and proof of factors increasing statutory maximum)." Apprendi, 530
U.S. at 487. This Court then explicityly noted that Almendarez-Torres
decision may have been incorrectly decided and should be narrowly applied:
Even though it is arguable that Almendarez-Torres was incorrectly
decided, and that a logical application of our reasoning today should
apply if the recidivist issue were contested, Apprendi does not revisit
it for purposes of our decision today to treat the case as a narrow
exception to the general rule we recalled at the outset. Given its unique
facts, it surely does not warrant rejection of the otherwise uniform
course of decision during the entire history of our jurispridence.
Apprendi, 530 U.S. at 489; (footnote omitted). In questioning the validity
°f Almendarez-Torres, the Court noted not only Justice Scalia's dissent
in Almendarez-Torres, but added that Almendarez-Torres ignored previous
Supreme Court authority that "the indictment must contain an allegation of
every fact which is legally essential to the punishment to be inflicted."
Apprendi, 530 U.S. at 490 ni!5 (quoting United States v Reese, 92 U.S.
214, 232-33 (1875)).
Under the reasoning of Apprendi, the reasonable doubt
component of Fifth Amendment due process and the Sixth Amendment right
to jury trial fully apply to any fact that increases the statutory
maximum. Almendarez-Torres did not address other factual distinctions,
which relate to factors beyond the pure fact of conviction. AlmendarezTorres should not, and cannot under Supreme Court precedent, be extended
to these additional facts required under the career offender text.
Justice Thomas' conurring opinion in Apprendi is worth mentioning:

24
t

"(l)f the legislature defines some core crime and then provided for
increasing the punishment of that crime upon a finding of some
aggravating fact (,)••• the core crime and the aggravating fact together
constitute an aggravated crime, just as much as grand larceny is an
aggravated form of petit larceny. The aggravating fact is an element of
the aggravated crime."
Justice Scalia

I believe that the fundamental meaning of

the jury-trial guarantee of the Sixth Amendment is that I all facts essential
to the imposition of the level of punishment that the defendant receiveswhether the statute calls them elements of the offense, sentencing
factors, or Mary Jane-- must be found by the jury beyond a reasonable
doubt." Ring, 536 U.S. at 610.
In Blakely

the Court applied Apprendi1s holding regarding

reasonable doubt and jury trial rights to increases in available punishment
in a state guidelines system. At the outset of the analysis, Justice
Scalia, writing for the majority, noted the comman law rule that " every
fact which is legally essential to the punishment "must be charged in
the indictment and proved to a jury. Blakely, involved the increase in
Washington guidelines. From the outset

the Court noted that the

aggravating factor was "neither admitted by Petitioner nor found by a
Jury-

.Bl^keljr, 124 S.Ct at 2537. This Court held that increases in

guidelines punishment implicated the constitutional trial rights:.
(T)he relevant statutory maximum" is not the maximum
sentence a judge may impose after finding additional facts,
but the maximumhe may impose without any additional findings.
When the judge inflicts punishment that the jury's verdict
aione does not allow, the jury has not found all the facts
which the law makes essential to the punishement" ...and the

25-

judge exceeds his proper authority."
This Court should find the defendant is entitled to the
protection of due process, the Fifth and Sixth Amendment- that Apprendi,
and Alleyne afford him.
Alternatively, even if statutory construction under the
doctrine of constitutional avoidance and the alternative of limiting
Almendarez-Torres to its "unique facts" did not resolve this case,
the defendant should prevail because, even on its facts, AlmendarezTorres is no longer good law. This Court stated long ago the "one rule
of universal application,---- that every ingredient of the offence

must

be accurately and clearly expresses; or, in other words, that the
indictment must contain an allegation of every fact which is legally
essential to the punishment to be inflicted." United States v Reese,92
U.S. 214, 232 (1875) (Clifford, J., concurring). In the context of this
precedent before and after--reasoning of the Sixth Amendment--reasonable
doubt cases, Almendarez-Torres is an invalid deviation from the common
law and constitutional requirement that all the ingredients necessary
for punishment be alleged in the indictment. Especially given Alleyne,
Apprendi and Justice Thomas' Shepard concurrence (125 S.Ct at 1263-64)
pointing out that a maiority of Justice believe Almendarez-Torres was
wrongly decided" the decision should not be applied to this case.
The defendant's

actual innocence', his objections to the

career offender and § 851

and his prior convictions clearly should

place him under the protection of due process principles-The Sixth
Amendment jury protection should be rewarded to the contested
of the offense-which is within a jury's sole purview. Alleyne.

■ ~1

.1 26 J.

elements

ARGUMENT 2:

ALTERNATIVE, WHETHER THIS COURT SHOULD ADDRESS THE
CONFLICT BETWEEN THE STATE COURTS AND THE FEDERAL COURTS

The common-law approach to determining elements was the wellestablished rule that, if a statute increased the punishment of a common
law crime, whether felony or misdemeanor, based on some fact, then that
fact must be charged in the indictment in order for the court to impose
the increased punishment. Archbold * 106; See id., at *50; ante, at _
- _, 147 L Ed 2d, at 449. There was no question of the State Courts as
treating statutory aggravating fact as merely a sentencing enhancementas nonelement enhancing the sentence of the common-law crime. The
aggravating fact was an element of a new, aggravated grade of the commonlaw crime simply because it increased the punishment of the common-law
crime. And the common-law crime was

in 'relation to the statutory one,

essentially just like any other lesser included offense. See Archbold *
106.
Further evidence of the rule that a crime includes every fact
that is by law a basis for imposing or increasing punishment comes from
early \cases addressing recidivism statutes. As

Justice Scalia explained

there was a tradition of treating recidivism as an element. See
Almendarez-Torres, 523 US, at 256-257, 261

140 L Ed 2d 350, 118 S Ct

1219 (dissenting opinion) That tradition stretches back to the earliest
years of the Republic■ See, e.g., Commonwealth v Welsh, 4 Va 57 (1817);
Smith v Commonwealth, 14 Serg & Rawle 69 (Pa 1826); See also Archbold
*695-*696.

o

>1

27

i

wj
•.V

The State Courts treated the fact of prior conviction jjust as
any other fact that increased the punishment by law. By the same reasoning
that the Courts employed in Hope and Lacy, the fact of a 'prior conviction
was an element, together with the facts constituting the core crime of
which the defendant was charged, of a new, aggravated crime.
The State two;leading cases on whether recidivism is an element
are/were Plumbly v Commonwealth. 43 Mass 413 (1841), and Tuttle v
Commonwealth, 68 Mass 505 (1854). In the latter, the State Court explained
the reason for treating as an element the fact of the prior conviction:
’When the statute imposes a higher penalty upon a second and third
conviction, respectively, it makes the prior conviction of a
similar offence a part of the description and character of the
offence intended to be punished:; vand therefore the fact of such,
prior conviction must be charged, as well as proved. It is
essential to an indictment, that the facts constituting the offence
intended to be punished should be averred." Id at 506.
The State Courts rested this rule on the common law the
Massachusetts equivalent of the Sixth Amendment's Notice Clause. Ibid.
See also Commonwealth v Haynes, 107 Mass 194, 198 (1871) (reversing
sentence, upon confession of error by attorney general, in case similar
to Tuttle).
Almost, the entire State system treated the fact of prior
convictions as elements of the crime. The State Courts made it clear,
by both their holdings and'their language, that when a statute increases
punishment for some core crime based on the fact of a prior conviction,
the core crime and the fact of the prior crime together create a new,
aggravated crime. Kilbourn v State, 9 Conn 560, 563 (1833) ("No person

28 |

ought to be, or can be subjected to a cumulative penalty, without being
charged with a cumulative offence"); Plumbly supra, at (conviction
under recidivism statute is "one conviction, upon one aggregate offence");
Hines v State, 26 Ga 614, 616 (1859) (reversing enhanced sentence imposed
by trial judge and explaining, "(T)he question, whether the offence was
a second one, or not, was a question for the'jury'... The allegation
(of a prior offence) is certainly one of the first importance to the accused
for if it is true, he becomes subject to a greatly increased punishment").
See also Common v Phillips, 28 Mass 28, 33 (1831) ("(U)pon a third
conviction, the court may sentence the convict to hard labor for life. The
punishment is to be awarded upon that conviction, and for the offence of
he is then and there convicted").
Here, in another State case, the exception to the practice
of including the fact of a prior conviction in the indictment-to help
prove the rule that the fact is an element because it increases the
punishment by law. See State v Freeman, 27 Vt 523 (1855), the Vermont
Supreme Court upheld a statute providing that, in an indictment or
complaint for violation of a liquor law, it was not necessary to allege a
prior conviction of that law in order to secure an increased sentence.'But the court did not hold that the prior was not an element-instead, it
held that the liquor law created only minor offenses that did not qualify
as crimes. Thus, the State Constitutional protections that would attach
were a "crime" at issue did not apply. Id., at 527; See Goeller v State,
119 Md 61, 66-67, 85 A 954, 956 (1912) (discussing Freeman).

■

29

The State Courts clearly conflicts with the Federal CourtsEven to the points of treatises-which was one of the leading authorities
of the era in criminal law. 1 J. Bishop, Law of Criminal Procedure 50
(2d ed. 1872)

See id., § 81, at 51-53, the provision of State and

Federal Constitutions guaranteeing notice of an accusation in all criminal
cases, indictment by a grand jury for serious crimes, and trial by jury.
With regards to the common law, Bishop explained that this
rule was "not made apparent to our understandings by a single case only,
but by_ all the cases." It was followed "in all cases, without one
exception."

Bishop and the State higher Courts made no exception for the

fact of prior conviction- "persons held for crimes ... shall be convicted,
there shall be an allegation made against them of every element of crime
which the law makes essential to the punishment to be inflicted."
Because neither the State or Federal constitution ratify the
change the government relies on- And it is impossible to rule out that
the the difficult constitutional questions in this case, is the jury's
purpose alone.

. 30 1

L

i

•

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

rA
Date:

0l/b4h03-/

A

r

rrST*!

•

; v ■k-itji.::

